W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-49

James Tolle

Rockwell Collins Control Technologies, Inc.
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Erin M. Wetty

Date:

7/22/21

(Type or print) Name

Digitally signed by: Erin M. Wetty
DN: CN = Erin M. Wetty email = ewetty@seyfarth.com C = US O = Seyfarth Shaw LLP
Date: 2021.07.22 14:35:22 -04'00'

Erin M. Wetty
Mr.

Ms.

Mrs.

Firm

Seyfarth Shaw LLP

Address

1075 Peachtree St., N.E., Suite 2500

City & State

Atlanta

Phone

404-885-1500

Miss

Zip 30309
Email

ewetty@seyfarth.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
James Tolle

cc:

